                                       SOCIAL SECURITY
MEMORANDUM

Date:   August 20, 2004                                                               Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)



        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the Social
        Security Administration’s performance indicators established to comply with the
        Government Performance and Results Act. The attached final report presents the
        results of two of the performance indicators PwC reviewed. For each performance
        indicator included in this audit, PwC’s objectives were to:
           •   Test critical controls over the data generation and calculation processes for the
               specific performance indicator,
           •   Assess the overall adequacy, accuracy, reasonableness, completeness, and
               consistency of the performance indicator and supporting data, and
           •   Determine if each performance indicator provides meaningful measurement of
               the program and the achievement of its stated objectives.

        This report contains the results of the audit for the following indicators:
           •   Reduction in the Size of the Earnings Suspense File, and
           •   The Percent of Incoming Earnings Items Removed from the Suspense File at the
               end of the Annual Earnings Posting Cycle.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.



                                                          S
                                                          Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   PERFORMANCE INDICATOR AUDIT:
       EARNINGS SUSPENSE FILE


     August 2004   A-15-04-14069




 AUDIT REPORT
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
MEMORANDUM

Date:    August 5, 2004

To:      Acting Inspector General

From:    PricewaterhouseCoopers LLP

Subject: Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)

The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

OBJECTIVE
For each performance indicator included in this audit, our objectives were to:

         1. Test critical controls over the data generation and calculation processes for
            the specific performance indicator.
         2. Assess the overall adequacy, accuracy, reasonableness, completeness, and
            consistency of the performance indicator and supporting data.
         3. Determine if each performance indicator provides meaningful measurement
            of the program and the achievement of its stated objectives.

We audited the following performance indicators as stated in the SSA Fiscal Year
(FY) 2003 Performance and Accountability Report (PAR):

       Performance Indicator                 FY 2003 Goal               FY 2003 Reported Results
    Reduction in the Size of the              18,000,000                        2,400,000
    Earnings Suspense File
    (ESF).
    The Percent of Incoming                          2%               N/A (While the indicator result
    Earnings Items Removed                                            was not officially reported in
    from the Suspense File at                                         SSA’s FY 2003 PAR, we were
    the end of the Annual                                             informed by SSA management
    Earnings Posting Cycle.                                           that the actual result was 0.43%.)

1
  Public Law No. 103-62, 107 Stat. 285.
2
  31 United States Code (U.S.C.) 1115(a)(4).
3
  31 U.S.C. 1115(a)(6).


Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                                    1
BACKGROUND

Earnings Suspense File

SSA receives Wage and Tax Statements (W-2) from employers and self-employment
earnings from the Internal Revenue Service. SSA maintains two ESF accounts; one for
wage employees and one for self-employers.4 The annual earnings posting cycle for
receiving and validating this data, including identifying and posting corrections, is
approximately 2 years. SSA receives approximately 250 million earnings records
annually and attempts to match these records with the master record of all issued Social
Security numbers (SSN). Without a match, SSA is unable to post the reported earnings
to the appropriate record, and these earnings are placed in the ESF.

Records are posted to the ESF for a number of reasons, including:
  • Earnings records fail the name and SSN validation test.
  • Earnings records consist of invalid SSNs.
  • SSA records indicate that the individual is under the age of 7. These records are
      assigned a special indicator of YCER (Young Children’s Earnings).
  • SSA records indicate that the individual is deceased. These records are
      assigned a special indicator of Earnings After Death (EAD).
  • An individual informs SSA that posted earnings are erroneous.

We were informed that approximately 10 percent of the received earnings records do
not initially match SSA data. SSA has developed several computerized matching
processes to correct these suspended records, and is typically able to match 64 percent
(16 million) of the initially suspended records. As a result, approximately 9 million
records are added to the ESF each year. The ESF currently contains over 250 million
suspended records.

RESULTS OF REVIEW

Reduction in the Size of the Earnings Suspense File

          FY 2003 Goal: 18,000,000.
          Actual FY 2003 Performance: 2,400,000.
          SSA did not meet its goal.5




4
    This performance indicator only measures those items removed from the wage employees ESF.
5
    Social Security Administration Performance and Accountability Report Fiscal Year 2003 page 83.


Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                                  2
Indicator Background
A Plan
SSA reported this performance indicator for the first time in FY 2003 to measure the
reduction of records in the ESF attributable to a special Office of Quality Assurance
(OQA) project. The 2-year project goal was to remove 30 million records from the ESF
(including 18 million earnings records in FY 2003) by effectively matching earnings
records to the correct SSA records using enhanced matching routines. SSA is
constantly receiving and inputting earnings information, resulting in continuous changes
to the ESF. Because SSA does not maintain archives of the ESF, it is not possible to
review the ESF for a specific historical date.

To calculate the results of this indicator, OQA personnel extracted copies of the ESF in
October 2002 and October 2003, and compared the earnings records. If a record was
originally contained in the October 2002 ESF extract but was no longer contained in the
ESF as of October 2003, then OQA counted the record as removed.

Findings

Generally, we found this performance indicator to be meaningful. However, we found
that the title of the performance indicator, “Reduction in the Size of the Earnings
Suspense File,”6 and the corresponding data definition could cause a reader to infer that
the size of the ESF was reduced during the year, when the net size of the file actually
increased during FY 2003. As described in the following paragraphs, SSA removed
millions of records from the ESF during FY 2003; however, SSA also reported to us that
during FY 2003 the net size of the ESF increased by 9 million records as a result of the
2002 tax year earnings records that were suspended.

Furthermore, we believe that SSA should strengthen the logical access privileges given
to employees to help ensure that the data supporting this performance indicator is not
inadvertently deleted or changed without appropriate approval.

To measure the number of records removed from the ESF, OQA matched records in the
prior year file (FY 2002) to the current year file (FY 2003) using five fields. All five fields
must be matched for an FY 2003 record to be considered to be the same record in the
FY 2002 file. The five fields matched are:

      •   employer Identification Number field,
      •   calendar year (CY) of posted earnings field,
      •   first three characters of the last name field,
      •   SSN field,
      •   the sequence number (counter) field.




6
    Ibid, page 83.


Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                          3
The sequence number is used to distinguish among multiple people with the same
name. If any of the five fields outlined above do not match within a record between the
FY 2002 and FY 2003 ESF extracts, the record is counted as removed. The total count
of these items is measured as the number of records removed from the ESF during the
year.

During FY 2003, modifications were made to records containing special indicator fields
(EAD, YCER, and erroneous postings), which caused the sequence number for those
records to change. Because the sequence number field was modified, the process to
compare the five fields for the FY 2002 to FY 2003 ESF extracts would reflect these
records as removed regardless of whether they were in fact removed. To prevent these
records from being included in its “removed record” count, OQA excluded these
approximately 1.6 million records containing special indicator fields from the
2002 extract prior to comparing it to the 2003 extract. This process may have
understated the number of records that should have been included in the count of
properly removed records.

Our testing also found that other changes could have occurred to the five fields within
the ESF records during FY 2003. Changes to any of the five fields within a record
during FY 2003 may have prevented OQA from matching that record from the
October 2002 file to the October 2003 file. As a result, ESF records that had any of
these fields modified would be considered removed from the FY 2003 file. This process
may have overstated the number of records that were removed from the ESF.

We recalculated the performance indicator by comparing the extracts provided by OQA
and found that approximately 1.7 million records contained in the October 2002 extract
no longer appeared in the October 2003 extract. The difference between our
recalculation and the 2.4 million records reported as removed in the PAR was attributed
by OQA to 664,623 records that were removed by systems personnel prior to the OQA
matching process. The 664,623 records were removed before the ESF extract was
provided to OQA in October 2002.

Because SSA did not maintain an independent copy of the ESF used to calculate this
indicator, we were provided with the OQA copies of the ESF extracts from
October 2002 and October 2003 for recalculation testing. Because archives of the ESF
are not maintained and no copy of the extract was maintained independently, we could
not verify and validate that the extract provided by OQA was an accurate and complete
extract of the ESF or that the reported number of 664,623 records were in fact
removed, removed properly, or removed during FY 2003 by systems personnel prior to
providing the file to OQA.

We found that SSA had not documented policies and procedures related to the formal
process to collect, review and report the performance indicator data.




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                   4
Finally, we tested the access of 45 individuals to a selection of ESF datasets used to
calculate this indicator and found that 35 of the 45 individuals tested had the “ALL”
access designation within the Top Secret security software to these datasets. Many of
the individuals with the “ALL” access designation to the ESF datasets did not require
this level of access to perform their job responsibilities. This level of access would allow
users to create, delete and update any of the data contained within the datasets we
reviewed without appropriate review or approval of the changes.

The Percent of Incoming Earnings Items Removed from the Suspense File at the
End of the Annual Earnings Posting Cycle

          FY 2003 Goal: 2 percent.
          Actual FY 2003 Performance: Not Available.7 (See Note)
Note: The indicator result was not officially reported in the FY 2003 PAR. We were
informed by SSA management via email that the actual result was 0.43 percent.

Indicator Background

SSA reported this performance indicator for the first time in FY 2003 to measure the
percentage of records that were reinstated from the ESF based upon a special OQA
project. The indicator goal was to remove 2 percent of all incoming records to the ESF
at the end of the 2002 annual earnings posting cycle by effectively matching earnings
records to the correct SSA master record using enhanced matching routines. However,
the most recent annual earnings posting cycle for which all processing of earnings
records had been completed was CY 2000; therefore, SSA reported results based on
the CY 2000 data.

When earnings records in the ESF are matched via the OQA process, those records are
reinstated via the Reinstates File. The Reinstates File does not have an audit log and
subsequent earnings records (i.e. records from CYs 2001, 2002, etc.) update any prior
record for the same individual.

To calculate this indicator, OQA personnel extracted copies of the ESF for
October 2002 and October 2003 and the Reinstates File for October 2003. The
numerator for the performance indicator was calculated by determining the records
removed by the OQA and systems process (those containing reinstatement codes
attributed to OQA and systems) that were added to the Reinstates File for
CY 2000. The denominator consists of the total records added to the ESF from
CY 2000 (including the records that were removed by the OQA process).




7
    Ibid, page 84.


Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                       5
Findings

Generally, we found this performance indicator to be meaningful. However, we believe
that SSA should strengthen the logical access privileges given to employees to help
ensure that the data supporting this performance indicator is not inadvertently deleted or
changed without appropriate approval.

Earnings records from CY 2000 in the Reinstates File may have been overwritten by
subsequent earnings records that were reinstated for the same individual and not
included in the calculation of earnings records removed. SSA could not determine the
extent of the understatement. As a result, the actual results of the performance
indicator could not be completely and accurately calculated.

SSA did not maintain an independent copy of the ESF and Reinstates File used to
calculate this indicator. As a result, we were given the OQA copy of the ESF and
Reinstates File extracts for our recalculation testing. Because archives of the ESF and
Reinstates File are not maintained and no copy of the extracts were maintained
independently, we could not verify and validate that the extracts provided by OQA were
accurate and complete.

We found that SSA had not documented policies and procedures related to the formal
process to collect, review and report the performance indicator data.

Finally, we tested the access of 45 individuals to a selection of Reinstates File datasets
used to calculate this indicator and found that 32 of 45 individuals tested had the “ALL”
access designation within the Top Secret security software to these datasets. Many of
the individuals with the “ALL” access designation to the ESF datasets did not require
this level of access based upon the concept of least privileged access. This level of
access would allow users to create, delete and update any of the data contained within
the datasets we reviewed without appropriate review or approval of the changes.

RECOMMENDATIONS
We recommend SSA:
    1. Ensure that the performance indicator titles, definitions, and goals are explicit
       and consistent.
    2. Document the policies and procedures used to prepare and disclose the results
       of the performance indicators.
    3. Disclose in the PAR the limitations within the ESF and Reinstates File that may
       have resulted in the potential understatement of the results for these
       performance indicators.
    4. Maintain an independent audit trail including the computer files used to perform
       the calculations.
    5. Restrict access to the ESF and Reinstates File based on the concept of least
       privileged access.



Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                        6
AGENCY COMMENTS

SSA disagreed with three recommendations in our report. SSA provided the following
narrative on the reasons for its disagreement:

         Recommendation number 1 – SSA stated it does not believe that the
         performance indicator and its related definitions and goals are misleading.

         Recommendation number 3 – SSA stated it intentionally understated counts of
         items removed from the suspense file.

         Recommendation number 4 – SSA felt that there is no reason to maintain an
         independent copy of the ESF.

PwC RESPONSE

Recommendation number 1 in our report refers specifically to the verbiage noted in the
PAR and not the Monthly Tracking Report. We recommend that the PAR be updated to
ensure that the performance indicator titles, definitions, and goals are explicit and
internally consistent.

With regard to recommendation number 3, the goal of performance reporting is to be as
accurate and clear in the communication of the results as possible. We believe that
adding verbiage related to the intentional understatement of results would improve
clarity and allow the users of the PAR to fully understand how the reported amounts
were actually derived.

Regarding recommendation number 4, the maintenance of data to support the amounts
reported within the PAR, Office of Management and Budget Circular A-123,
Management Accountability and Control, establishes the following recording and
documentation standard for all Executive Branch Agencies:

         “Transactions should be promptly recorded, properly classified and accounted for
         in order to prepare timely accounts and reliable financial and other reports. The
         documentation for transactions, management controls, and other significant
         events must be clear and readily available for examination.”




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                     7
                                                Appendices
APPENDIX A - Acronyms

APPENDIX B - Scope and Methodology

APPENDIX C - Process Flowcharts

APPENDIX D - Agency Comments




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)
                                                                         Appendix A
Acronyms
 CY                  Calendar Year
 DECOR               Decentralized Correspondence
 EAD                 Earnings After Death
 ERMS                Earnings and Recording Maintenance System
 ESF                 Earnings Suspense File
 FY                  Fiscal Year
 GPRA                Government Performance and Results Act
 ICOR                Item Correction System
 IRS                 Internal Revenue Service
 IST                 Intelligent Search Technology
 MEF                 Master Earnings File
 OEEAS               Office of Earnings, Enumeration, and Administrative Systems
 OP 30               Operation 30
 OQA                 Office of Quality Assurance
 PAR                 Performance and Accountability Report
 RCOR                Report Correction
 SRBARS              Suspense Reinstate Batch Adjustment and Reinstatement System
 SRDBAR              Suspense Reinstate Daily Batch Adjustment and Reinstatement System
 SSA                 Social Security Administration
 SSN                 Social Security Number
 SSP                 Single Select Process
 U.S.C.              United States Code
 YCER                Young Children’s Earnings




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)
                                                                        Appendix B
Scope and Methodology
We updated our current understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing including testing of source
documentation, we performed the following as applicable:

      •   Reviewed prior SSA, Government Accountability Office,1 and other reports
          related to SSA GPRA performance and related information systems.
      •   Met with the appropriate SSA personnel to confirm our understanding of each
          individual performance indicator.
      •   Flowcharted the processes (see Appendix C).
      •   Where applicable, we tested key controls related to manual or basic
          computerized processes (e.g., spreadsheets, databases, etc.).
      •   Conducted and evaluated tests of the automated and manual controls within and
          surrounding each of the critical applications to determine whether the tested
          controls were adequate to provide and maintain reliable data to be used when
          measuring the specific indicator.
      •   For those indicators with results that SSA determined using computerized data,
          we assessed the completeness and accuracy of that data to determine the data's
          reliability as it pertains to the objectives of the audit.
      •   Identified and extracted data elements from relevant systems and obtained
          source documents for detailed testing selections and analysis.
      •   Identified attributes, rules, and assumptions for each defined data element or
          source document.
      •   Tested the adequacy, accuracy, reasonableness, consistency, and completeness
          of the selection.
      •   Recalculated the metric or algorithm of key performance indicators to ensure
          mathematical accuracy.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes was used to


1
    Formerly called the General Accounting Office.


Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                   B-1
determine if the performance indicators being used appear to be valid and appropriate
given our understanding of SSA’s mission, goals, objectives and processes. We
followed all performance audit standards. In addition to the steps above, we specifically
performed the following to test the indicators included in this report:

REDUCTION IN THE SIZE OF THE EARNINGS SUSPENSE
FILE
    •    Interviewed personnel in the Office of Quality Assurance (OQA) and the Office of
         Earnings, Enumeration, and Administrative Systems (OEEAS).
    •    Reviewed relevant documentation for the sources of the data included in the
         Earnings Suspense File (ESF), the matching routines for suspended records and
         the process for reinstating those records to the Master Earnings File (MEF).
    •    Performed an application controls audit of the Earnings and Recording
         Maintenance System (ERMS).
    •    Reviewed the process for controlling access to the ESF and tested the
         appropriateness of the access privileges granted to the ESF for a selection of
         SSA personnel.
    •    Recalculated the results of the performance indicator by obtaining a copy of the
         ESF extracts from October 2002 and October 2003 and determining the number
         of records that were removed during Fiscal Year (FY) 2003.

THE PERCENT OF INCOMING EARNINGS ITEMS REMOVED
FROM THE SUSPENSE FILE AT THE END OF THE ANNUAL
EARNINGS POSTING CYCLE

    •    Interviewed personnel, including OQA and OEEAS.
    •    Reviewed relevant documentation for the sources of the data included on the
         ESF and the Reinstates File, the matching routines for suspended records and
         the process for reinstating those records to the MEF.
    •    Performed an application controls audit of ERMS.
    •    Reviewed the process for controlling access to the ESF and Reinstates File and
         tested the appropriateness of the access privileges granted to the Reinstates File
         and ESF for a selection of SSA personnel.
    •    Recalculated the results of the performance indicator by obtaining a copy of the
         Reinstates File and ESF extracts from October 2003 and determining the number
         of records that were posted to the Reinstates File from Calendar Year (CY) 2000
         based on OQA matching processes and ESF records from CY 2000.




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                     B-2
Pertaining to the “Reduction in the Size of the Earnings Suspense File” and “The
Percent of Incoming Earnings Items Removed From the Suspense File at the End of the
Annual Earnings Posting Cycle” indicators, we could not confirm the execution of OQA
matching routines that were responsible for identifying records or reinstatement as
these matching routines were completed prior to the audit time period.




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)              B-3
                                                                                                     Appendix C
Flowchart of Earnings Suspense File

          Earnings Record                       Does earnings
                                                record match          Yes              A
          received by SSA                        Numident?




                                                          No

                                         Matching process:
                                         y   Intelligent Search
                                             Technologies (IST)
                                         y   Single Select Process
                                             (SSP)
                                         y   Combination of IST and
                                             SSP




                                                   Does the
                                                                      Yes              A
                                                record match?



                                                          No



                                                     ESF

      Suspense Reinstate Batch
    Adjustment and Reinstatement
          System (SRBARS):                                                    Suspense Reinstate
y      Decentralized                                                               Daily Batch
       Correspondence (DECOR)                                                    Adjustment and
y      Ferret                                                                    Reinstatement
y      Operation 30 (OP 30)                                                    System (SRDBAR):
y                                                                            y     Report
       Suspense Sweeps
y      OQA                                                                         Correction
y      Gap Sweeps                                                                  (RCOR)
y                                                                            y     Item Correction
       Internal Revenue Service
       (IRS)                                                                       (ICOR)
y      Large Employer
       Reinstatement
y      W2C




               Does the                      Item remains in the                     Does the
                                    No                                No
            record match?                            ESF                          record match?




                              Yes                     A                     Yes




                                                 EPDESOUT




                                                   Master
                                                Earnings File
                                                   (MEF)




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                                          C-1
Earnings Suspense File (ESF)

    •    Earnings record received by Social Security Administration (SSA).
    •    Does earnings record match Numident?
            o Yes - EPDESOUT.
            o No - Matching process.
    •    Matching process:
                    Intelligent Search Technologies (IST).
                    Single Select Process (SSP).
                    Combination of IST and SSP.
    •    Does the record match?
            o Yes - EPDESOUT.
            o No – ESF.
    •    ESF.
    •    Suspense Reinstate Batch Adjustment and Reinstatement System (SRBARS):
            o Decentralized Correspondence (DECOR).
            o Ferret.
            o Operation 30.
            o Suspense Sweeps.
            o Office of Quality Assurance (OQA).
            o Gap Sweeps.
            o Internal Revenue Service (IRS).
            o Large Employer Reinstatement.
            o W-2C.
    •    Suspense Reinstate Daily Batch Adjustment and Reinstatement System
         (SRDBAR):
            o Report Correction (RCOR).
            o Item Correction (ICOR).
    •    Does the record match?
            o Yes - EPDESOUT.
            o No - Item remains in the ESF.
    •    EPDESOUT.
    •    Master Earnings File (MEF).




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)               C-2
Flowchart of Reduction in the Size of the
Earnings Suspense File

                                                 ESF (10/02 extract )




                                                    Is the record
                      Record remains    Yes       included on the       No       Record was
                                                                                removed from
                        on the ESF               ESF (10/03 extract)
                                                                                  the ESF



                                                                             Record is included in
                                                                             indicator calculation
                                                                              of reinstated items




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                                  C-3
Reduction in the Size of the Earnings Suspense File

    •    ESF (10/02 extract).
    •    Is the record included on the ESF (10/03 extract)?
             o Yes – Record remains on the ESF.
             o No – Record was removed from the ESF.
    •    Record was removed from the ESF.
    •    Record is included in indicator calculation of reinstated items.




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)         C-4
Flowchart of Percent of Incoming Earnings
Items Removed from the Suspense File at the
End of the Annual Earnings Posting Cycle
                                                           R ecord posted to the
                                                           R einstate M aster F ile




                                                     Yes                              No
                               Record eligible for             Is record fr om             R ecor d excluded
                                   calculation                     F Y 2000?                from calculation




                         Yes                Is       No
  R ecor d r einstated           R einstatem ent             R ecor d excluded
      due to OQA
       and system s                  code '40'?              from calculation
          pr ocess




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                                            C-5
    Percent of Incoming Earnings Items Removed from the Suspense File at the
    end of the Annual Earnings Posting Cycle

    •    Record posted to the Reinstate Master File.
    •    Is record from Fiscal Year 2000?
             o Yes - Record eligible for calculation.
             o No - Record excluded from calculation.
    •    Record eligible for calculation.
    •    Is Reinstatement code ‘40’?
             o Yes - Record reinstated due to OQA and systems process.
             o No - Record excluded from calculation.




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)        C-6
                                                                      Appendix D

Agency Comments




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)
                                                  SOCIAL SECURITY

MEMORANDUM                                                                           33296-24-1157


Date:      July 30, 2004                                                             Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Performance Indicator Audit: Earnings
           Suspense File” (A-15-04-14069)--INFORMATION


           We appreciate PricewaterhouseCooper and OIG's efforts in conducting this review. Our
           comments on the report are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Candace Skurnik on extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PERFORMANCE INDICATOR AUDIT: EARNINGS SUSPENSE FILE (ESF)”
A-15-04-14069

We appreciate the opportunity to comment on the draft report. The Agency continues to strive to
meet all of our performance goals and workload objectives.

Our comments to the specific recommendations are below.


Recommendation 1

Ensure that the performance indicator titles, definitions, and goals are explicit and consistent.


Comment

We agree in principle; however, we disagree that there is any need for change. We believe the
performance indicator titles, definitions and goals are consistent as stated on the Agency’s
tracking report and meet these standards.

For the performance indicator “Reduction in the Size of the Earnings Suspense File,” PwC states
the performance indicator is misleading because the size of the ESF increased with the new wage
items postings for the 2002 tax year. However, the Performance Indicator Definition on the
tracking report states, “This goal relates to the suspense file items for years prior to 2001”
(emphasis added). Therefore, we do not believe the performance indicator and its related
definitions and goals are misleading.

Recommendation 2

Document the policies and procedures used to prepare and disclose the results of the
performance indicators.

Comment

We agree. We will ensure that written procedures outlining the steps to be taken to compute the
results for the performance indicators will be documented. However, while the procedures used
to prepare the results did not meet the documentation standard used by PwC, we note when the
auditors followed our methodology and process, PwC matched the results reported by the
Agency.




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                                 D-2
Recommendation 3

Disclose in the Performance and Accountability Report (PAR) the limitations within the ESF and
Reinstates File that may have resulted in the potential understatement of the results for these
performance indicators.

Comment

We disagree. The Agency alerted PwC during the audit that we had intentionally understated the
counts as we had chosen not to include counts which could not be validated and/or explained.
When the PwC auditors followed the Agency methodology, the counts matched. We believe
disclosing the limitations in the PAR would not make a significant difference in the results and
the technical explanation of the limitations could mislead the reader.

Recommendation 4

Maintain an independent audit trail including the computer files used to perform the calculations.

Comment

We disagree. The Agency has no compelling reason to maintain archived independent copies of
the ESF. There is nothing in the business practice for resolving the ESF that would benefit from
maintaining archived copies.

Recommendation 5

Restrict access to the ESF and Reinstate File based on the concept of least privileged access.

Comment

We agree. The Agency continues to implement its Standardized Security Profiles. As these
activities take place, the ESF and Reinstate File will be brought under the concept of least
privilege.




Performance Indicator Audit: Earnings Suspense File (A-15-04-14069)                              D-3
           Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations
(OI), Office of Audit (OA), Office of the Chief Counsel to the Inspector General
(OCCIG), and Office of Executive Operations (OEO). To ensure compliance with
policies and procedures, internal controls, and professional standards, we also have a
comprehensive Professional Responsibility and Quality Assurance program.

                                    Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess
whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term
management and program evaluations and projects on issues of concern to SSA,
Congress, and the general public.

                                Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by
applicants, beneficiaries, contractors, third parties, or SSA employees performing their
official duties. This office serves as OIG liaison to the Department of Justice on all
matters relating to the investigations of SSA programs and personnel. OI also conducts
joint investigations with other Federal, State, and local law enforcement agencies.

               Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters,
including statutes, regulations, legislation, and policy directives. OCCIG also advises the
IG on investigative procedures and techniques, as well as on legal implications and
conclusions to be drawn from audit and investigative material. Finally, OCCIG
administers the Civil Monetary Penalty program.

                           Office of Executive Operations
OEO supports OIG by providing information resource management and systems security.
OEO also coordinates OIG’s budget, procurement, telecommunications, facilities, and
human resources. In addition, OEO is the focal point for OIG’s strategic planning
function and the development and implementation of performance measures required by
the Government Performance and Results Act of 1993.
